Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




      MEDICARE RISK HMO

   PERFORMANCE INDICATORS





                      sswrcl~.b
             ~.                   $




                     4g
             w
         #                            JUNE GIBBS BROWN
         ~                            Inspector    General
         s
         % e+
            ++                            OCTOBER 1995
              >   4~daa
                                          OEI 06-91-00734
                              OFFICE      OF    INSPECTOR         GENERAL


The mission of the OffIce of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the OffIce of Audit Services, the
OffIce of Investigations, and the OffIce of Evaluation and Inspections. The OIG also informs the
Secretary of HHS of program, and management problems, and recommends courses to correct
them.

                                 OFFICE        OF AUDIT     SERVICES


The OIG’S Ofllce of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performmce of HHS programs and/or its grantees and contractors in carrying out
their respective responsibilities and are intended to provide independent assessments of HHS
programs and operations in order to reduce waste, abuse, and mismanagement and to promote
economy and efilciency throughout the Department.


                                OFFICE         OF   INVESTIGATIONS


The OIG’S Ofllce of Investigations (01) conducts criminal, civil, and administrative investigations

of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment

by providers. The investigative efforts of 01 lead to criminal convictions, administrative

sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud control units which

investigate and prosecute fraud and patient abuse in the Medicaid program.



                       OFFICE    OF    EVALUATION           AND    INSPECTIONS


The OIG’S OffIce of Evaluation and Inspections (OEI) conducts short-term management and

program evaluations (called inspections) that focus on issues of concern to the Department, the

Congress, and the public. The findings and recommendations contained in these inspection reports

generate rapid, accurate, and up-to-date information on the efficiency, vulnerability, and

effectiveness of departmental programs. This report was prepared in the Dallas regional office

under the direction of Chester B. Slaughter, Regional Inspector General.

Project staff



REGION                                                                       HEADQUARTERS


Michelle Adams                        Judith Tyler                           Hugh Hetzer
Carolyn Neuwirth                      Nancy Watts                            Mark Krushat
Sarah Taylor                                                                 Brian Ritchie
                                                                             Barbara Tedesco

For additional copies of this report, please contact the Dallas Regional Ofllce at (800) 848-8960.
Department of Health and Human Services

        OFFICE OF	
   INSPECTOR	 GENERAL




      MEDICARE
 RISK HMO

   PERFORMANCE
 INDICATORS





               S6WICJ$
         *4.        “%
         ~w              JUNE GIBBS BROWN
         :               Inspector General
         s
         % ~
           ‘%za

           2
           %
           +*               OCTOBER 1995
                            OEI 06-91-00734
              EXECUTIVE                           SUMMARY

PURPOSE:

To determine the usefulness of HMO disenrollment rates as performance     indicators of
Medicare risk HMOS, in light of our recent beneficiary survey data.

BACKGROUND         AND METHODOLOGY:

The rapidly increasing participation
                                   of Medicare and Medicaid beneficiaries in managed
care has heightened the need to fmd valid measures and performance indicators for
HMOS. Two measures which have been considered by researchers and policy analysts are
HMO disenrolhnent rates and direct surveys of HMO members. We previously reported
results from a survey of 2,882 enrolled and disenrolled beneficiaries in 45 Medicare risk
HMOS. Using our survey data, coupled with disenrollment data for these HMOS, we
conducted both beneficiary and HMO-level analyses to assess the validity of using
disenrollment rates as indicators of HMO performance, and participant survey data to
predict disenrollment. This report presents our analyses and conclusions regarding the
viability of these two performance indicators.

FINDINGS

Disenrollrnent Rates as a Pe~orrnance Indicator

HMO disenrollment rates, once properly adjusted, may provide an early alert of possible
problems among Medicare risk HMOS. HMOS with higher disenrollrnent rates had more
enrollees who reported service access problems. However, the following adjustments to
HMO disenrolhnent rates are needed to accurately reflect HMO trends:

�      Annualize the rates to more accurately portray disenrollment activity among newer
       HMO risk contracts.
�      Adjust rates for administrative disenrollments (e.g. beneficiaries moving out of the
       service area).
�      Recognize disenrolhnent rates will be understated because they do not capture
       those beneficiaries who want to leave but cannot.

HMO Disenrollment Palterns

HMOS with more experience in the Medicare risk HMO program experienced the largest
decreases in their disenrollment rates over time.




                                              i
Beneficiary Disenrollment Patterns

Beneficiary-level survey data showed beneficiaries who are more likely to disenroll tend to
report: 1) declining health due to HMO care; 2) being disabled or having end-stage renal
disease (ESIU)); 3) perceiving that their HMO places more importance on holding down
the cost of care rather than giving the best medical care possible; and 4) experiencing long
waits in a primary HMO doctor’s office.

Beneficiaries leaving Medicare risk   HMOS   ofien re-enroll directly, or shortly thereafter, in
another HMO.

RECOMMENDATIONS

HMO disenrollment rates, in conjunction with beneficiary survey data, appear to be useful
HMO performance indicators. Overall, we recommend that HCFA use systematically
developed HMO disenrolhnent rates and beneficiary survey data to improve its monitoring
activities. We believe this is a particularly important step in light of the anticipated rapid
growth of the Medicare risk HMO program. We spcciilcally recommend that HCFA:

Use Disenrolhnent   Data

F      Tmck disenrollment rates over time to detect potential problems among HMOS.

F	     Use tijusted disendrnent ties, along with other available HMO information
       (e.g. beneficiary complaints and appeals lodged against HMOS) to target reviews of
       HMOS. Adjustments must include: 1) annualizing rates for Medicare risk HMO
       contracts less than 2 years old to more accurately measure newer HMOS’
       disenrollment activity, and 2) excluding administrative disenrollees, which
       overstate disenrollment rates due to such factors as enrollees moving or HMO plan
       discontinuation.

�	     Conduct disenmllment surveys that fully capture all the beneficiary’s reasons for
       leaving the Medicare risk HMO.

Use Beneficiary   Survey Data

F	     Survey enroUees systematically and routinely on key questions and on their desire
       to leave/remain with an HMO, to complement disenrollrnent data. Such survey
       data might be captured nationally, to assist in targeting HMOS for in-depth
       reviews, or in the HMOS which have been targeted as part of the in-depth review
       itself.

F	     Monitor Medicare risk HMOS with high disenrollment rates and repotted service
       access problems and work with HMOS to respond to the needs of k-neficiaries at
       risk of disenrolling. This should include activities that: 1) give more attention to
       the care delivered to disabled/ESRD beneficiaries; 2) reduce the waiting times in


                                               ii
       primary HMO doctor offices; and 3) address HMO practices that cause
       beneficiaries to report declining health status as a result of their HMO care and
       their sense that the HMO gives too much priority to holding down costs versus
       giving the best care.

Use Key Questions

Several key questions successfully predicted future disenrollment and HMO disenrollment
rates, along with beneficiaries who wanted to leave but felt they could not.

�	     The questc”onswe found most predictive of benejiciuries’ future disenrollment
       included:

       �      Were complaints taken seriously by their HMO doctors?

       �	     Did their primary HMO doctors provide Medicare services, admit them to
              the hospital, or refer them to a specialist when needed?

       �	     Did they perceive their HMOS as giving too high a priority to holding down
              the cost of medical care compared to giving the best medical care?

       �	     Did they perceive their health got worse as a result of the medical care they
              received in their HMO?

       �	     Did they experience long waits (1 hour or more) in their primary HMO
              doctors’ offices?

AGENCY      COMMENTS

HCFA concurred with the report’s recommendations. They noted several projects
underway by the OffIce of Managed Care (OMC) and other work groups addressing many
of the recommendations. We applaud their efforts. We would emphasize the importance
of conducting systematic and ongoing national surveys that are statistically sound and
contain a sufficient representation from individual Medicare HMOS to obtain comparable,
nonbiased data.




                                            ...
                                            111
                   TABLE                 OF         CONTENTS

                                                                                                   PAGE

EXECUTIVE     SUMMARY           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..i


INTRODUCTION          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1


FINDINGS    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...5


   Disenrollment Rates asaPerformance            Indicator     . . . . . . . . . . . . . . . . . . . . . 5


   HMO Disenrollment Patterns.            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...7


   Beneficiary Disenrollment Patterns           . . . . . . . . . . . . . . . . . . . . . . . . . . ...7


RECOMMENDATIONS               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


AGENCY     CO MMENTs          .....a............. . . . . . . . . . . . . . . . ...12


ENDNOTES      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


BIBLIOGRAPHY          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..18


APPENDICES


   A: Adjusted CY92-93Disenrollment             Rates by Key Variables          . . . . . . . . . . . A-1


   B: Annualized CY91-92and           CY92-93 Disenrollment Rates for NewHMOs                     . . . B-1


   c: CY92-93Disenrollment          Rates Adjusted for Administrative Disenrollees                . . . C-1


   D: CY91-92and       CY92-93Disenrollment          RatesbyHMO            . . . . . . . . . . . . . D-1


   E: Analysis ofBeneficiaries       More Likely toDisenroll.           . . . . . . . . . . . . . . . .E-l


   F: Key Linear Regression Variables and Results               . . . . . . . . . . . . . . . . . . .   F-1


   G: Agency Comments           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     G-1

                          INTRODUCTION

PURPOSE

To determine the usefulness of HMO disenrollment rates as performance indicators for
Medicare risk HMOS, in light of our recent beneficiary survey data.

BACKGROUND

As of February 1995, the Health Care Financing Administration (HCFA) reported 157
Medicare risk HMO plans served approximately 2.4 milLion beneficiaries, an increase of
70 contracts in just two years. The rapidly increasing participation of Medicare and
Medicaid beneficiaries in managed care has heightened the need to fmd valid measures
and performance indicators for HMOS. Two measures which have been considered by
researchers and policy analysts are HMO disenrollment ratesl and direct surveys of HMO
members.

Prior research on disenrolhnent rates and patterns for Medicare risk HMOS has generally
been retrospective and limited to disenrollee data. Using this approach, they found
disenrollment rates were lower for plans that were nonprofit, not federally qualifkd, and
group models (Brown et. al. 1986), and higher for plans that were networldmixed models,
for-profit, lacking a chain affiliation, and having fewer than 1,000 or more than 10,000
Medicare beneficiaries enrolled (HCFA 1990). Reasons for disenrollment were discontent
with physicians, often caused by poorly established relationships with them; financial
constraints, such as high premiums; and HMO pmceduml constraints, such as needing a
primary HMO doctor’s referral for other services (Porell et al. 1992; Rossiter et al. 1988,
1989; Ward, R.A. 198’7). Studies exploring the geneml characteristics of disenrollees
have found that those reporting access problems were more likely to have Mdlcare
entitlement through disability, reported fair or poor health status, had out-of-plan use, had
either very high or no HMO physician/specialist use, and disenrolled within three months
of enrollment (Porrell et al. i992).

One study on Medicare risk HMOS, which used demographic information for both
enrollees and disenrollees, concentrated on beneficiary satisfaction and how this related to
disenrollment from social/HMOs2 @rrington et al. 1993). Disenrollees, compared to
enrollees, were more likely to not live alone, have some other type of health insurance or
Medicaid, have an employer who pays for the insurance, and report having inadequate
information when they joined the HMOS. Disenrollees were also more likely to have
better health status, have no impairments in activities of daily living, and have required no
hospital or chronic care.




                                               1

continuity and consistency with our frost report, we separated enrollees and disenrollees
for most HMO-level data analysis. Also, since our individual-level data was a
disproportionate sample of enrollees and disenrollees, we had to account for varying
response rates per HMO. Specitlcally, enrollees were distributed among all 45 HMOS,
but disenrollee representation was limited. Four HMOS had less than 20 of 50
disenrollees return their survey. Thus, for disenrollees only, these 4 HMOS were dropped
from fimtber analysis. Our intent was not to generalize our findings to all Medicare risk
HMOS but to use our data to detect trends within our own sample, especially to illustrate
the utility of HMO-level analyses.

Regression Analysis of Data

We analyzed the data at the beneficiary-level and at the HMO-level, using both linear and
logistic regression models. Due to the continuous nature of the dependent variables (e.g.
HMO disenrollmefit rates), linear regression models were used for any data aggregated at
the HMO-level. Logisitic regression models were used for the beneficiary-level data
because the dependent variable in this analysis was binary, either a one (1) if the event
occurred or a zero (0) if otherwise.

 b      Linear remwsion analyses - Beneficiary responses from key survey questions were
linked to their respective HMOS and became variables used in all regression analyses,
along with structural factors for each HMO. Except for some structural factors, all
variables were continuous, measuring the percentage of beneficiaries reporting a particular
occurrence within each HMO. Only the dependent variable measuring HMO
disenrollment rates is presented as a finding in the main body of this report. Several
additional analyses were conducted but are only referenced as an endnote or included in
the Appendix material. These analyses included models with dependent variables
measuring the percentage of HMO beneficiaries who want to leave but cannot, and those
who actually lefi within one year of our survey.

Key survey questions, used to identify potential problems in our companion reports, are
included for each HMO in our regression analysis and show the percent of beneficiaries:

       �      receiving fee-for-service prior health care

       �      self-reporting serious health problemsg

       �      being asked inappropriate questions about health at application

       �      waiting an hour or more to see a primary HMO doctor

       �      perceiving declining health as a result of HMO care

       �      saying their complaints were not taken seriously by a primary HMO doctor

       �      seeking out-of-plan medical care while in the HMO

       �      reporting it was more important to their HMOS to hold down the cost of

              medical care than to provide the best medical care possible
       �      saying their primary HMO doctors did not provide Medicare services,
              admit them to the hospital, or refer them to a specialist when needed




                                              3

�       Logistic remession analvsis - For the logisitic regression, all variables, except age,
used individual-level beneficiary data coded as binary variables, i.e., either a
characteristic existed (coded as 1) or otherwise (coded as O). The dependent variable,
being a sampled disenrollee or otherwise (enrollee), measured the change in the referent
category (disenrollee) produced by each independent variable (see Appendix E).
Additional independent variables used in logisitic regression analysis include:

       �       Medicare category: beneficiary was disabled or had end-stage renal disease
               (ESRD)
       �       beneficiary’s age
       �       non-competitive area: beneficiary lived in a county with no other Medicare
               risk HMO contract
       �       propensity: beneficiary’s propensity to use medical services was low or
               medium
       �       prior care: beneficiary was enrolled in an HMO before joining sampled
               HMo
       �       health worsened: beneficiary reported health declined due to care provided
               by the sampled HMO

This inspection was conducted in accordance with the Quality Standar& for Inspection
issued by the President’s Council on Integrity and Eftlciency.




                                               4

                                   FINDINGS

DISENROLLMENT          RATES AS A PERFORMANCE               INDICATOR

HMO disenrollment raies, once properly tijusted,       may provide an early alert of possible
problems among Medicare risk HMOS.

HMOS with high disenrollment mtes could be targeted for follow-up analysis and further
investigation by HCFA. However, disenrollment rates, like other performance indicators,
should not be used as a sole measure of performance but are most helpful when used in
conjunction with beneficiary survey data.

HMOS wilh higher disenrollment rates had more enrollees who reported service access
problems.

Enrollees who said they experienced poor service, whose complaints were not taken
seriously, and who were in for-profit HMOS, were more likely to come from HMOS with
higher disenrollment rates.9 These 3 factors helped explain much of the variation in our
HMOS’ Calendar Year 1992-93 disenrollment ratesl”, even after controlling for such
structural characteristics as HMO type and enrollment size (see Appendix A and Appendix
F, Tables 1 and 5).:1

Poor service

  �	   Poor service (e.g. primary HMO doctor did @ provide Medicare services, admit
       to the hospital, or refer to a specialist when needed) had the largest impact on
       disenrollrnent rates. 12 HMOS with the 5 highest disenrollment rates were 1.5
       times more likely to have beneficiaries who reported poor service (18 percent vs.
       12 percent). 13

Complaints not taken seriouslv

  �	   The perception that a primary HMO doctor did @ take a beneficiary’s complaints
       seriously strongly affects disenrollment rates. 14’15The 3 HMOS with the highest
       disenrollment rates also have the highest percentages of beneficiaries reporting
       their complaints were not taken seriously (see Appendix A).

Profit status

  �	    Profit status also significantly influences fi.dnre disenrollrnent rates. Four of the 5
        HMOS with the highest disenrollment rates were for profit HMOS.




                                                5

HMO disenrollment ties       need adjustment to more accurately reflect trends within
HMOS.

HMO disenrollment rates, in their raw form, do not accurately reflect beneficiary
disenrollment patterns. They may overstate or understate the true rate. For example,
limited GHP information regarding beneficiaries’ reasons for disenrollment would
overstate the true disenrollment rate. 16 To correct some of these problems, adjustments
are needed before using HMO disenrollment rates.

Annualize HMO disenrollment rates.

We found the length of the HMO contract sigtilcantly influenced large changes in
disenrollment rates over time (see Appendix F, Tables 1 and 2). For the time periods we
measured, HMOS with risk contracts less than two years old experienced enormous
increases in disenrolhnent rates. These HMOS had disenrollrnent rates that were
understated because not enough time had elapsed to fully measure their disenrollment
rates. However, after annualizing disenrolhnent rates for our 10 newer HMOS, these
increases were less dramatic’ (see Appendix B).

Account for administrative disenrolhnents.

We found administrative disenrollments overstate true HMO disenrollment rates. Almost
one-third of disenrollees surveyed left solely for administrative reasons, such as moving,
procedural errors, or an HMO no longer participating in the Medicare risk HMO progmm
or in a company’s retirement plan. Adjusting for administmtive disenrcdlments resulted in
substantial decreases in disenrollment rates for several HMOS; 17 HMOS experienced a
drop of 33 percent or more, one declined 71 percent. The average change in
disenrollment rate, after adjusting for administrative disenrolkxs, was a decrease of 32
percent17 (see Appendix C).

Using disenrollment rates without feedback on why beneficiaries left can be very
misleading. As mentioned, sometimes beneficiaries have only moved or were disenrolled
in error. In a more dramatic example, 1 HMO experienced a 725 percent increase in its
disenrollment rate from Calendar Years 1991-92 to Calendar Years 1992-93, with a rise
from 4 to 33 percent. One year after our survey, 74 percent of surveyed beneficiaries lefl
this HMO. Interestingly, our survey feedback for this HMO showed w widespread
beneficiary discontent. Upon further examination, we found this increase resulted from
the HMO splitting into 2 HMOS. Beneficiaries were administratively transferred from one
HMO risk contract to the new risk contract operated by the same company .18




   *   Annualizeddisenrollmentrates were used in the analysis on page 5 and throughout the remainder of
       the report, allowing for comparisonsof older and newer HMO risk contracts.


                                                  6
Recomize disenrollment rates will not ca@ure information from those enrollees who want
to leave but cannot.

Enrollees wanting to leave their HMOS, but saying they cannot, comprise an unmeasured
group in any assessment of HMO disenrollment rates, thus, understating the true rate.
Ten percent of surveyed enrollees wanted to leave but could not, primarily because they
thought they could not afford to leave. One HMO had 26 percent of its beneficiaries
reporting this situation+ Since only 9 percent of enrollees wanting to leave actually left
within one year after our survey, many of this group’s concerns will not be measured by
future HMO disenrollment rates. 19

HMO DISENROLLMENT            PATTERNS

HiWOs with more experience in the Medicare risk HMO program experienced the largest
decreases in their disenrollment &es over time.

Although disenrollment rates averaged a 6 percent increase over the two time periods
measured, individual HMO disenrollment rates fluctuated rather widely, with an average
26 percent change in absolute value. 20 HMOS with older risk contracts experienced the
largest decreases in their disenrollment rates. The largest decrease, 62 percent, occurred
in an HMO which began its risk contract in 1987. The largest increase in disenrollment
rate, 150 percent after annualizing, occurred in an HMO which began its risk contract in
1992 (see Appendix D).

BENEFICIARY      DISENROLLMENT          PATTERNS

By using beneficiary survey data responses we were able to determine: 1) which
beneficiaries were more likely to be an enrollee or a non-administrative disenrollee based
on their answers to key survey questions (see Apyendix E) and 2) beneficiary enrollment
patterns before joining and after leaving a sample HMO.

Beneficiaries who are more likely to disenroll tend to repoti declining hedh due to
HMO care received, being disabled/ESRD, being in HMOS perceived as @“vingmore
impotiance to holding down the cost of care, and experiencing long waits in a primary
HMO doctor’s office

In this section, beneficiary responses were analyzed as sampled (e.g. enrolled or
disenrolled), and not in reference to their disenrollment status after we surveyed them.

Beneficiaries health worsened

  �	   Beneficiaries saying their health got worse as a result of the care they received
       from their HMO were 5 times more likely to disenroll.21 This factor was the
       strongest predictor of disenrollment status.




                                              7

Disabled/ESRD beneficiary

 �	   Disabled/BSRD beneficiaries were 3.5 times more likely to disenroll.zz This
      group reported more access and service problems compared to aged
      beneficiaries. 23

Holdimz down costs pe rceived as more imDortant to HMO than zivin~ the best medical
care Dossible

 �	    Beneficiaries perceiving their HMOS give more importance to holding down the
       cost of care were 3.4 times more likely to disenroll.x

Long waits in primarv HMO doctor’s office

 �	    Long waits in their primary HMO doctor’s office made beneficiaries 2.8 times
       more likely to dlsenroll.

Beneficiaries leaving Medicare risk HMOS ofien re-enroll immediately, or shortly
thereafter, in another HMO.

Beneficiaries switch frequently between fee-for-service and HMOS after they disenroll.
However, this disenrollment ofien does not mean beneficiaries leave HMOS for long
periods of time. Enrollment patterns among Medicare risk HMOS suggest market factors
(e.g. expensive premiums/co-payments) strongly influence beneficiary disenrollment.
However, survey data also show perceived service access problems are a major influence
on whether beneficiaries disenroll from their HMO.

Previous HMO exwrience:

Of the 31 percent of beneficiaries with prior HMO experience, 69 percent went directly
from the prior HMO to our sample HMO, while 31 percent went into fee-for-service.
This latter group received care them for an average of 25 months.25 Seven percent of
beneficiaries left an HMO in 1 state and enrolled in a new HMO in another state.

Nine percent of beneficiaries disenrolled from their previous HMO, where they averaged
14 months of care, and received fee-for-service care for just over one year. These
beneficiaries then re-enrolled in the same HMO, receiving an average of 23 months of
care.




                                            8

!Mnmle HMO ex~erience:

Beneficiaries stayed in our sample HMOS an average of 26 months: 18 percent were

enrolled between 1 and 3 months; 22 percent, four months to 1 year; 19 percent, at least

1 year; and 41 percent, more than 2 years. Of the beneficiaries who were surveyed as

disenrollees, the following were some of the most frequent reasons for leaving:


 �     31 percent said their premium/co-payments were too expensive

 �     30   percent   did not like their choice of doctors

 �     25   percent   moved

 �     25   percent   wanted to use the doctor they had prior to this HMO

 c     24   percent   did not like going through their primary HMO doctor for other services

Of the 5 percent who said they planned to leave their HMO, ahnost half (47 percent)
actually left within me year. Over one-third who planned an administrative deparhme
(i.e. moving), in fact, left their HMO. Thus, information on beneficiaries planning to
leave may provide powefil insight for predicting future beneficiary disenrollment.

Post HMO ex~erience:

Sixty-five percent of beneficiaries went directly back into fee-for-service after disenrolling
from their HMOS.2GJ27However, 18 percent of this group stayed in fee-for-service an
average of 5 months and then returned to an HMO. Therefore, nearly half of
beneficiaries leaving their HMO, either initially or eventually, enrolled in an Hl 10. Ten
percent of these beneficiaries enrolled in a new HMO in another state. Another 12
percent of beneficiaries switched back to the same HMO they were in prior to joining our
sampled HMo.

Twelve percent of beneficiaries received care through fee-for-service for an average of 5
months before m-enrolling in the same HMO in which they were sampled. Their reasons
for leaving include: 1) moving; 2) wanting to use the doctor they had prior to this HMO;
3) not liking their choice of doctors; and 4) the premium/co-payment being too costly.




                                                9

                    RECOMMENDATIONS

HMOdisenrollrnent rates, inconjunction with beneficia.ry survey data, appear to be useful

HMO performance indicators. High disenrollment rates or frequent reports of service

access problems should be a warning to HCFA of a potentially problematic HMO.

Overall, we recommend that HCFA use systematically developed HMO disenrollment

rates and beneficiary survey data to improve its monitoring activities. We believe this is a

particularly important step in light of the anticipated rapid growth of the Medicare risk

HMO progmm. We specifically recommend that HCFA:


USE DISENROLLMENT           DATA

�	     Track disenrollment rules over time to detect potential problems among HMOS.
       HMOS experiencing larger than average increases in disenrollment rates should be
       monitored more closely.

�	     Use tijusted disenrollment rates, along with other available HMO information
       (e.g. beneficiary complaints and appeals lodged against HMOS) to target reviews of
       HMOS. Adjustments must include:

       �	     Annualizing rates for Medicare risk HMO contracts less than 2 years old to
              more accurately measure newer HMOS’ disenrolhnent activity. Waiting to
              evaluate HMOS until they become fidly operational might jeopardize the
              health of and service to Medicare beneficiaries, especially since nearly half
              of risk contracts are less than 2 years old. Alternative methods, such as
              annualizing, will allow HCFA and other researchers to keep abreast of
              potential problems of all HMOS and not just the HMOS with older
              contracts.

       �	     Excluding administrative disenrollees, which overstate disenrollment rates
              due to such factors as enrollees moving or HMO plan discontinuation.

�	     Conduct disenrollment surveys that fully capture all the beneficiary’s reasons for
       leaving the Medicare risk HMO. This information should be included in the GHP
       data fdes.


USE BENEFICIARY        SURVEY DATA

As discussed in previous OIG reports providing results of our beneficiary survey data, this
information can be useful in a number of different ways. We emphasize here two uses:
supplementing disenrollment data to assess HMO performance, and pinpointing problem
areas that might lead beneficiaries to disenroll.




                                             10

�	    Survey enrollees systemah”cally and routinely on key questions and on their desire
      to leave/remain with an HMO, to complement disenrollment data. Such survey
      data might be captured nationally, to assist in targeting HMOS for in-depth
      reviews, or in the KMOS which have been targeted as part of the in-depth review
      itself.

�	    Monitor Medicare risk HMOS with high disenrollment nrtes and repotied service
      access problems and work with HMOS to respond to the needs of beneficiaries at
      risk of disenrolling. This should include activities that: 1) give more attention to
      the care delivered to disabled/ESRD beneficiaries; 2) reduce the waiting times in
      primary HMO doctor ofilces; and 3) address HMO practices that cause
      beneficiaries to report declining health status as a result of their HMO care and
      their sense that the HMO gives too much priority to holding down costs versus
      giving the best care.


USE KEY QUESTIONS

Several key questions successfully predicted future disenrollment and HMO disenrollment
rates, along with beneficiaries who wanted to leave but felt they could not.

F	     The questions we found most predictive of beneficiaries’ fidure disenrollment
       included:

       �      Were complaints taken seriously by their HMO doctors?

       �	     Did their p~imary HMO doctors provide Medicare services, admit them to
              the hospital, or refer them to a specialist when needed?

       *	     Did they perceive their HMOS as giving too high a priority to holding down
              the cost of medical care compared to giving the best medical care?

       �	     Did they perceive their health got worse as a result of the medical care they
              received in their HMO?

       �	     Did they experience long waits (1 hour or more) in their primary HMO
              doctors’ offices?




                                            11

                    AGENCY                 COMMENTS

We received comments from the Health Care Financing Administration (HCFA). The full
text of their comments is in Appendix G.

The HCFA concurred with all of the report’s recommendations. HCFA noted that the
Office of Managed Care (OMC) has developed a plan profde report which incorpomtes a
number of data elements on disenrollrnent. These profdes are reviewed on an ongoing
basis by OMC’S Operations and Oversight Team. HCFA reports it is currently
implementing a new disenrollment form to capture signiilcant data regarding motivations
for disenrollment. With the addition of this information, we believe that HCFA should be
able to adjust HMO disenrollment rates by accounting for administrative disenrollments.
As it pursues this initiative, we suggest that HCFA: 1) attempt to capture all the
beneficiaries’ significant reasons for leaving the Medicare risk HMO; 2) include
disenrollment information in the GHP data files so that researchers can properly adjust
disenrollment rates when studying Medicare risk HMOS; and 3) annualize disenrollment
rates to improve comparability of newer HMO contracts with older ones.

A work group within HCFA is also currently developing a strategy on beneficiary
satisfaction surveys. We applaud their efforts. Due to the difficulties involved in
measuring satisfaction, we urge that the survey focus more on measuring enrollee service
access than on beneficiary satisfaction. We would emphasize the importance of
conducting systematic and ongoing national surveys that are statistically sound and contain
a sufficient representation from individual Medicare HMOS to obtain comparable,
nonbiased data. These surveys should ask key questions that we know are predictive of
future disenrollment and also focus on service access for disabled/ESRD beneficiaries.
The results of these surveys should be included in the HMO plan profde report and used
proactively by HCFA to detect potential problems among HMOS.




                                             12

                               EN DNOTES




1.	   Several researchers have suggested Medicare risk HMOS should be required to
      disclose disenrolltnent rates to serve as a proxy for such things as enrollment and
      service access problems (Prasad and Javalgi 1992; Porrell et al. 1992).

2.	   Social/Health Maintenance Organizations offer expanded benefits in addition to
      those normally offered by Medicare risk HMOS, such as outpatient prescription
      drugs, eyeglasses, and/or chronic care benefits. In return for these expanded
      benefits, beneficiaries am charged premiums.

3.	   We did not speciilcally ask beneficiaries about their satisfaction with the HMOS, as
      the concept of satisfaction is less objective than, and sometimes independent of, the
      issues of membership in a Medicare risk HMO.

4.	   Since our primary focus was Medicare beneficiaries’ perceptions, we collected
      information from them and did not contact HMOS or their staffs, nor did we
      attempt to assess the quality or propriety of medical care rendered by the HMOS to
      these beneficiaries.

5.	   We selected a stratifkxl random sample from HCFA’S Group Health Plan (GHP)
      data base. First, we sampled 45 HMOS from the 87 HMOS under a risk contract
      with HCFA as of February 1993. Beginning with the GHP data, we counted the
      number of enrollments occurring within calendar years 1991 and 1992. For this
      cohort, we then calculated the proportion of disenrollments within the following 12
      months. Based on this disenrollment rate, we divided the 87 risk HMOS into three
      strata of 29 HMOS each. Within each strata, we selected 15 HMOS by simple
      random sampling. Second, from each sampled HMO, we randomly selected 50
      Medicare beneficiaries who were enrolled as of February 28, 1993 and 50 who had
      disenrolled between November 1992 and February 1993 inclusive. When the total
      number per HMO for either group was less than 50, we selected them all. Using
      HCFA’s Enrollment Data Base, we excluded, from the sampling universe,
      beneficiaries who had died or who appeared as current enrollees, but had actually
      disenrolled since the last update to the GHP fde. This process resulted in 2,217
      enrollees and 1,915 disenrollees for a total of 4,132 beneficiaries. A total of 2882
      surveys were deemed usable, yielding an unweighed return rate of 70 % overall,
      77% for enrollees (N= 1,705) and 61% for disenrollees (N= 1, 17’7).

6.	   See “Beneficiary Perspectives of Medicare Risk HMOS, ” OEI-06-9 1-00730 and
      “Medicare Risk HMOS: Beneficiary Enrollment and Service Access Problems, ”
      OEI-06-91-00731 .




                                            13

7.    HMO model types are divided into three categories. Group models contract with
      independent, multispecialty physician groups. Individual practice associations
      (IPAs) contract with independent physicians or small, single specialty physician
      groups who also maintain private practices co-jointly with their HMO contract.
      Staff models directly employ salaried physicians to serve patients.

8.    Beneficiaries with serious health problems had one or more illnesses, e.g., heart
      attack, cancer, or pneumonia.

9.    As found in past surveys, disenrollees are consistently more dissatisfied than
      enrolled beneficiaries (OIG/OEI 1994; Barrington 1993). We found survey data of
      enrollees more powerfully differentiates problematic HMOS. We were able to
      explain 20 percent more of the variation in disenrolhnent rates for CY92-93 by
      using the experiences of just enrollees.

10.   HMO disenrollment rates for 1992-93 were adjusted as discussed on page
                                                                          — 6 to
      more accurately reflect each HMO’s true dlse~ollment rate.

11.   Table 1 below shows the sharp contrast between the average percentage of
      beneficiaries reporting service problems at the 5 HMOS with the highest
      disenrolhnent rates compared to other surveyed HMOS.


            Table 1: Comparisonof HMOSWith Top 5 Dknrolhnent Rates Compared
                          To AU Other Surveyed    HMOs by Key Variables

                                                  Top 5 HMOSwith
                                                 Highest Disenrollment     Other Surveyed
      Key Variables                                      Rates                HMOS
      Received poor service                             18.0%                   12.1%
      Complaintsnot taken seriously by
      primary HMO doctor                                21.4%                   15.4%

      *
               Six HMOSwere excluded in the analysis of disenrolleesand disenrolhnent rates because
               three had less than 20 disenrokes of the 50 suweyedper HMO;2 HMOSdiscontinued
               theirHMO risk contracts in 1993; and 1 HMO split into 2 risk HMOS, transferring many
               beneficiaries.

12.   For every 1 percent increase in HMO beneficiaries          reporting poor service, HMO
      disenrollment rates changed .68 percent.

13.   Poor service also signitlcantly influenced the percentage of beneficiaries who
      wanted to leave but could not (see Appendix F, Tables 1 & 3).

14.   Future HMO disenrolhnent rates increased .51 percent for every 1 percent increase
      in HMO beneficiaries’ complaints not being taken seriously.




                                                 14

15.	   We also found beneficiaries whose complaints were not taken seriously significantly
       affected the percentages of beneficiaries leaving their HMO one year later (see
       Appendix F, Tables 1 & 6).

16.	   HMO disenrolhnent rates have typically only reflected movement out of an HMO
       (#of disenrollees -+ # of new enrollees in the year prior) with no regard to such
       factors as administrative reasons for a beneficiary to leave (moving, company
       dropped the HMO) or the length of time the Medicare HMO risk contract has been
       operating.

17.	   Table 2 below shows the change in overall HMO disrollment rates for CY91-92
       and CY92-93 after adjusting for administmtive disenrollments. Four HMO’s
       CY92-93 disenrollment rates decreased more than 6 percent, while 23 HMOS
       decreased between 3 and 6 percent, and 12 HMOS had decreases less than three
       percent after adjusting for administmtive disenrollees.

                Table 2: Comparison of HMOS’     Unadjusted CY91-92 & CY92-93

                        Dkenrollment Rates with HMOS’ Adjusted Rates,

                              Excluding Administrative Dkenrollees”


                         Unadjusted              Adjusted
                           Rates                  Rates                  !%Change
             CY91-92        14.6%                  10.6%                   -27%
             CY92-93        13.6%                    9.8%                  -28 %       II


       *
              SIXHMOSwere excluded in the analysis of disenrolleesand disenrollmentrates because
              three had less than 20 disenrolleesof the 50 surveyed per HMO; 2 HMOSdiscontinued
              their HMO risk contracts in 1993; and 1 HMO split into 2 risk HMOS, transferring many
              beneficiaries.

18.	   This HMO was excluded from all i%ture analyses of disenrolhnent rates or the
       percent of beneficiaries leaving their HMO.

19.	   Research has shown beneficiaries respond to dissatisfaction by either “exiting” or
       through complaints, or “voice” (Wrrington 1993; Hirschman 1970). Beneficiaries
       with financial constraints or without other insurance options are often forced to
       remain in their HMO because they lack alternatives.

20.	 We excluded 3 HMOS from our analysis because 2 HMOS discontinued their HMO
       contracts in 1993 and 1 split into 2 Medicare risk HMOS.

21.	   Beneficiaries’ health getting worse is ne~ativel~ correlated at the .86 level with the
       variable measuring poor service. This relationship suggests some beneficiaries are
       provided Medicare services and referrals to specialist care but stiLlfeel their health
       worsened due to the care they received in their HMO. Why poor service did not
       significantly predict disenrollment status may be explained by the fact that


                                                15
        variables correlated in excess of .80 tend to weaken the effect of one or both
        variables.

        In addition, beneficiaries’ health getting worse is po sitivelv correlated with
        beneficiary complaints not taken being seriously at the .71 level. This suggests
        there is a strong relationship between beneficiaries’ health getting worse and their
        complaints not being taken seriously by their primary HMO doctor.

22.	    This finding is consistent with prior research reported in “Beneficiary Perspectives
        of Medicare Risk HMOS” (OEI 06-91-00730).

23.	    Table 3 below shows the sharp differences in reported access and service problems
        of disabled/ESRD beneficiaries compared to aged beneficiaries.

             Table 3: Geneflciary     Perspectives   of Aged or Dkabled/ESRD*         by Key Variables

       Key Variables                        Disenrollees                                    Enrolled
                                           Aged Disabled/ESRD                        Aged       Disabled/ESRD
       Primary HMO doctor did              38%               48%                      11%               20%
       not tie healthcomplaints           (7,892)           (976)                   (104,185)          (4,671)
       seriously.
       PrimaryHMOdoctor                    20%              39%                        3%                4%
       failedto provideMedicare           (4,366)           (823)                   (30,648)           (1,285)
       servicesthat wereneeded.
         *
                 The data presented    in Table 3 was weighted     to approximate    70% of the universe.    A
                 previous OEI report (OEI 06-91-00730)includes a completedescription of the weighting
                 methodology.

         Disabled/FZSRD disenrollees also seem to be disproportionately represented among
         disenrollees. In the entire sample and among enrollees, the weighted proportion of
         disabled/ESRD beneficiaries is 3 percent. However, disabled/ESRD disenrollees
         account for 8 percent of all disenrollees, compared to only 3 percent of aged
         beneficiaries who are disenrolling. After analyzing HMOS that had at least 4
         disabled/ESRD beneficiaries, we found 8 HMOS had mom than 50 percent of their
         disabled/ESRD beneficiaries disenroI1.

24.	     In additional analyses, we found beneficiaries who were in HMOS that found it
         more important to hold down the cost of care signifkantly affected the percentages
         of beneficiaries leaving their HMOS one year later (see Appendix F, Tables 1 &
         6).

25.	     Prior HMO care includes various arrangements: 1) enrolling directly in our
         sampled HMO from another HMO; 2) enrolling directly from fee-for-service; and
         3)enrolling in an HMO, returning to fee-for-service, and then enrolling in our
         sampled HMo.


                                                           16

26.    SeeEndnote #10.

27.	 One study of disenrolhnent patterns of Medicare risk beneficiaries found
       beneficiaries were less likely to enroll in another HMO if they had some type of
       “other insurance” (Barrington 1993).




                                            17

                         BIBLIOGRAPHY


Brown, R. S. 1988. Biased Selection in the Medicare Competition Demonstrations.
Princeton, N. J.: Mathematical Policy Research.

Brown, R. S., K. Langwell, K. Berman, A. Ciemenecki, L. Nelson, A. Schreier, and A.
Tucker. 1986. Enrollment and Disenrollment in Medicare Competition Demonstration
Plans: A Descriptive Analysis. Mathematical Policy Research, under Health Care
Financing Administration contract # 500-83-0047.

Barrington, C., R.J. Newcomer, and S. Preston. 1993. “A Comparison of S/HMO
Disenrollees and Continuing Members, ” Inquiry 30:429-440.

Health Care Financing Administration. 1990. Disenrollment Experience in the Medicare
HMO and (34P Risk Program: 1985 to 1988. Report to Congress, Department of Health
and Human Services.

Hirschman, A. O. 1970. Exit, Voice and Loyalty: Responses to Decline in Firms,
Organizations and States. Cambridge, Mass.: Harvard University Press.

OffIce of Inspector General, Department of Health. and Human Services.   1994.
Beneficiary Perspectives of Medicare Risk HMOS. OEI-06-91-00730.

Porrell, F., C. Cocotas, P. Perales, C. Tompkins, and M. Glavin. 1992. Factors
Associated w“thDisenrollment j?om Medicare HMOS: Findings @om a survey of
DisenroUees. Cooperative Agreement to the Health Policy Research Consortium of
Brandeis University under contract # 99-C99256/l 1-06.

Porrell, F. and C. Tompkins. 1993. “Medicare Risk Contracting: Identifying Factors
Assoicated with Market Exit, ” Inquiry 30:157-169.

Prasad, V.K. and J.G. Rajshekhar. 1992. “Understanding Needs and Concerns of the
Elderly Regarding Medicare Health Maintenance Organizations, ” Z%eJourrud of
Consumer A#airs 26:1:47-67.

Rossiter, L., K. Langwell, T.H. Wan, and M. Rivnyak. 1989. “Patient Satisfaction
Among Elderly Enrollees and Disenrollees in Medicare Health Maintenance
Organizations: Results from the National Medicare Competition Evaluation, ” Journul of
the American Medical Association 262:1:57-63.




                                           18

Rossiter, L., T. Wan, K. Langwell, J. Hadley, A. Tucker, M. Rivnyak, K. Sullivan, and
J. Narcross. 1988. Nationul Medicare Competition Evaluation: An analysis of Patient
Satisfaction for Enrollees and Disenrollees in Medicare Risk-Based Plans. Williamson
Institute for Health Studies, Medical College of Virginia and Mathematical Policy
Research, under contract # 500-83-0047.

Ward, R.A. 1987. “HMO Satisfaction and Understanding Among Recent Medicare
Enrollees, ” Journal of Health and Social Behuvior 24:325-337.




                                          19

                                 APPENDIX                                  A


               Table 1: AdjustedCY92-93D~enrolbnentRates          By Key Survey Variables
                                             (Enrollees onlv}

                                   Adjusted
                              Disenrollment Rate                   Poor             ComplaintsNot Taken
                                   CY92-93                      Service***               Seriously
       HMO Ownership**             (Percent)                      (Poor)                 (Percent)

Group ~
#1                                   12.7                           8.0                      7.7
#2                                   13.9                           6.9                     10.7
#3                                   NS                            13.3                     20.7
#4                                   25.7                          11.8                     17.9
#5                                   16.5                           2.6                     15.0
#6                                   18.2                          13.8                     10.3
#7                                   NS                             5.6                     19.0

Group B
#8                                   2.2                            2.8                      2.8
#9                                   6.4                            2.8                      8.1
# 10                                 NA                             2.9                      6.3
#11                                  NA                            13.8                     16.1
# 12                                 NS                             3.1                     20.0
Group C
# 13                                 8.4                            0.0                      6.3
# 14                                 7.4*                           0.0                      3.6
# 15                                 7.6                           12.0                      3.8

Group D
# 16                                  6.5                          13.2                     15.0
# 17                                  3.2                           5.9         I            8.1

Group E
# 18
# 19
                                     9.3
                                     4.1
                                                                   17.6
                                                                    6.7         I           15.0
                                                                                            16.1

Group F
# 20                                 6.8                                                    11.1
# 21                                 10.1
                                                                     6.1
                                                                     8.1        I           17.1
Group G
# 22
# 23
                                      4.4
                                      5.0
                                                                     6.1
                                                                     3.8        I            8.6
                                                                                            12.9

#24                       I          4.9*                            3.7        I           11.1

# 25                      I           8.0                            3.2        I           12.1

# 26                      I          37.0*                          11.8        I           23.8

                                                                     6.7        I           10.3

                                                                    23.5        I           21.7

                                                                     7.0        I           13.3




                                                     A-1

                    Table 1: Adjusted CY92-93 Disenrollment Rates By Key Survey Variables
                                               (Enrollees only)

                                           Adjusted
                                      Disenrollment Rate                Poor                Complaints Not Taken
                                           CY92-93                   Service***                   Seriously
           HMO Ownership**                 (Percent)                   (Poor)                     (Percent)
                                                                                                                    L
     # 30                                      5.9                        5.1                         7.5

     #31                                      15.5                       10.3                         6.5

     # 32                                     20.2                       12.5                         7.7

     # 33                                      4.2                       10.0                        13.6

     # 34                                       1.9                       5.6                         5.7

     # 35                                      3.5                        7.5                         7.1

     # 36                                      10.2                      10.3                        13.8

     # 37                                     13.4                       16.2                        12.8

     # 38                                     15.0                       10.8                        18.4

     # 39                                      5.4                        6.1                         8.6

     #40                                       8.1*                       6.9                         8.6

     #41                                       NA                         9.7                         6.3

     # 42                                      4.2                        6.1                         5.6
                —
     # 43                                      6.6                        8.3                         4.9

     #44                                       3.4                        7.9                         7.9

     # 45                                      2.3                        9.7                        25.0
                                                                                                                     \
*
             Annualized diaemolhnent rate based on the number of disenrollees for the period of time the HMO risk
             contract existed. This technique allows for comparison among newer and more established HMOS.

**
             HMOS are grouped together if they are owned by the same parent company.

***
             Primary HMO doctor did not provide Medicare services, admit to the hospital, or refer to a specialist when
             needed.

NS	          Not Sufficient Data - Five HMOS were excluded in the analysis of disemollees    and disenrollment rates because
             less than 20 of the 50 disenrollees returned their survey.

NA	          Not Applicable - Three HMOS were not included in this analysis, H0616 and H0617 discontinued their risk
             contract in 1993 and H9049 split into two risk HMOS, transferring many beneficiaries into H3856.




                                                            A-2

                Table 2: Top 5 Adjusted CY92-93 Disenrollment       Rates by Key Survey Variables

                                           Adjusted
                                        Disenrollment                Poor              Complaints Not Taken
                                        Rate CY92-93               Service**                 Seriously
            HMO Ownership                 (Percent)                (Percent)                 (Percent)

     # 26                                           37.0*                      11.8                     23.8

     # 28                                           28.1                       23.5                     21.7

     #4                                             25.7                       11.8                      17.9

     # 32                                           20.2                       12.5                       7.7

     #6                                             18.2                       13.8                      10.3

*
             Annualized disemollment rate based on the number of disemollees for the period of time the HMO risk
             contract existed. This technique allows for comparison among newer and more established HMOS.

**
             Primary HMO doctor did not provide Medicare services, admit to the hospital, or refer to a specialist when
             needed.




                                                            A-3

                                 APPENDIX                                    B


             Table 1 : Unannualiied and Annualized CY91 -92 & CY92-93 Disenrollment             Rates
                      For the 10 HMOS with Risk Contracts for Less Than Two Years

                                           Unannualiied      Rates                        Annualized        Rates

                  Month/Year
                  Risk HMO       CY91-92         CY92-93            %            CY91 -92     CY92-93                  %
                   Contract        Rate            Rate          Change            Rate         Rate                Change
       HMO           Began       (Percent)       (Percent)       in Rate         (Percent)    (Percent)             in Rate

# 24                  5192             3.0           6.0             100.0          9.0           7.2                -20.0

# 26                  6{92            10.7          31.0             189.7         36.7          39.2                     6.8

# 27                  10/92            0.5           4.9             880.0          4.0               7,9               95.0

# 32                  11/91          20.0           26.5              32.5         34.3          26.5                   -22.7

# 33                  8/91             4.4           5.3              20.5          6.2               5.3               -14.5

# 14                  9/92             0.8           8.0             900.0          4.8          12.0                   150.0

# 12                  4/92             5.6          13.1             133.9         14.9          15.0                    0.7

# 40                  4/92             6.5          10.4             60.0          17.3          11.9                -31.2

# 22                  2/9 1

# 43                  419 ‘



mm                              -::,::2:                                          1::           l:;                 :




                                                      B-1

                                      APPENDIX                     C


          Table 1: CY92-93 Dkenrollment Rates, Percent Administrative Disenrollment,
                       and CY92-93 Adjusted Dsenrollment  Rates by HMO

                                                                   Adjusted
                          Dkenrollment                          Disenrollment
                              Rate             Percent               Rate              % Decrease in
                            CY92-93         Administrative         CY92-93               CY92-93
HMO Ownership**             (Percent)       Disenrolhnent          (Percent)               Rate

Group A
#1                            20.1               37.0                12.7                  36.8
#2                            19.8               30.0                13.9                  29.8
#3                            29.6                NS                  NS                    NS
#4                            30.0               14.3                25.7                  14.3
#5                            17.6                6.3                16.5                   6.3
#6                            24.3               25.0                18.2                  25.1
#7                            22.6                NS                  NS                    NS

Group B
#8                             5.2               58.3                2.2                   57.7
#9                            10.6               39.3                6.4                   39.6
# 10                          NA                  NS                 NA                    NA
#11                           NA                 25.0                NA                    NA
# 12                          15.0*               NS                 NS                     NS

Group C
# 13                          12.2               31.0                 8.4                  31.1
# 14                          12.0*              38.1                 7.4*                 38.3
# 15                          10.9               30.8                 7.6                  30.3

Group D
# 16                          11.3               42.9                 6.5                  42.5
# 17                           7.7               58.3                 3.2                  58.4

Group E
# 18                          11.9               22.2                 9.3                  21.8
# 19                           9.2               56.0                 4.1                  55.4

Group F
# 20                           9.7               30.3                 6.8                  29.9
# 21                          13.6               25.8                10.1                  25.7

Group G
# 22                           5.5               20.0                 4.4                  20.0
# 23                           8.1               38.9                 5.0                  38.3

#24                            7.2*              31.6                 4.9*                 31.9

#25                            12.8              37.5                  8.0                 37.5

# 26                          39.2*                5.6               37.0*                  5.6

# 27                           7.8*               18.5                6.4*                  17.9

# 28                           32.8               14.3               28.1                   14.3

# 29                           16.3               50.0                 8.2                  49.7



                                                   c-1
              Table 1: CY92-93 DisenroUment Rates, Percent Adminiitrative Disenrollment,
                           and CY92-93 Adjusted Disenrollment Rates by HMO

                                                                          Adjusted
                               DEenrollment                             DBenroUment
                                   Rate               Percent               Rate               % Darease in
                                 CY92-93           Administrative         CY92-93                CY92-93
      HMO Ownership**            (Percent)         Disenrollment          (Percent)                Rate

     # 30                            7.1                 16.7                  5.9                   16.9

     #31                            20.2                 23.1                 15.5                   23.3

     # 32                           26.5                 23.8                 20.2                   23.8

     # 33                            5.3                 20.0                  4.2                   20.8

     # 34                            6.6                 71.9                  1.9                   71.2

     # 35                            3.5                  0.0                  3.5                    0.0

     # 36                            15.7                34.8                 10.2                   35.0

     # 37                           15.9                 16.0                 13.4                   15.7

     # 38                           18.4                 18.5                 15.0                   18.5

     # 39                           10.5                 48.3                  5.4                   48.6

     # 40                           11.9*                32.0                  8.1*                  31.9

     # 41                            NA                  NA                   NA                     NA

     # 42                            9.4                 55.2                  4.2                   55.3

     # 43                            9.9                 33.3                  6.6                   33.3

     # 44                            6.6                 48.6                  3.4                   48.5

     # 45                            5.1                 54.8                  2.3                   54.9

     Average % Change                                                                               32.3

*
            Annualized diseorolhnent rate based on the number of disenrollees for the period of time the HMO risk
            contract existed. This technique allows for comparison among newer and more established HMOS.

**
            HMOS are grouped together if they are owned by the same parent company.

NS	         Not Sufficient Data - Five HMOS were excluded in the analysis of disenrolkes   and disenrollment rates because
            less than 20 of the 50 disenrollees returned their survey.

NA	         Not Applicable - Three HMOS were not incIuded in this analysis: H0616 and H0617 discontinued their risk
            contract in 1993 and H9049 split into two risk HMOS, transferring many beneficiaries into H3856,




                                                           c-2

                                     APPENDIX                          D	


       Table 1: Unadjusted    CY91-92 Disenrollment     Rates & ‘92-’93 Disenrollment   Rates by HMO

                      Month/Year                CY91-92                  CY92-93
                      Risk HMO               Disenrollment            Disenrollment           % Change in
    HMO                Contract                    Rate                    Rate               Dkenrollment
  Ownership**            Began                  (Percent)               (Percent)                 Rate

Group A

#1
                          6/88                 21.8                      20.1                       7.8
#2
                          4185                 18.8                      19.8                +      5.3
#3
                          7185                 21.0                      29.6                +     41.0
#4
                          12/87                47.5                      30.0                      36.8
#5
                           1/90                10.6                      17.6                +     66.0
#6
                           1/86                28.4                      24.3                      14.4
#7
                          6188                 29.3                      22.6                      22.9

Group B

#8
                          10/85                  5.9                      5.2                      11.9
#9
                          7185                  11.0                     10.6                       3.6
# 10
                        8/88                  5.4                      NA                       NA
#11                          8188                  5.4                      NA                       NA
# 12                         4192                 14.9*                    15.0*                +     0.7*

Group C
# 13                         4{86                 10.1                      12.2                + 20.8
# 14                         9192                 4.8*                      12.0*               + 150.0*
# 15                         4186                 8.8                       10.9                + 23.9

Group D
# 16                         1/88                     9.0                   11.3                +     25.6
# 17                         1187                     9.2                    7.7                      16.3

Group E
# 18                         8186                 10.8                      11.9                +     10.2
# 19                         2186                  7.1                       9.2                +     29.6

Group F
# 20                         10I85                22.9                       9.7                     57.6
# 21                         7185                 14.5                      13.6                      6.2

Group G
# 22                         2191                 6.2*                       5.5                     11.3*
# 23                         1/88                 8.7                        8.1                      6.9

# 24                         5192                 9.0*                      7.2*                     20.0*

# 25                         6/86                 11.3                      12.8                +      13.3

# 26                         6192                 36.7*                    39.2*                +     6.8*

#27                          10/92                    4.0*                  7.8*                +    95.0*

# 28                         4/85                 29.5                      32.8                +      11.2

#29                           1/86                    15.3                  16.3                 +      6.5

# 30                         7186                     9.7                    7.1                       26.8
                                                                                                              I
                                                       D-1
             Table 1: Unadjusted    CY91-92 DisenrolJment     Rates & ‘92-’93 Dfienrollment   Rates by HMO

                              Month/Year               CY91-92                 CY92-93
                              Risk HMO              Disenrollment           Disenrollment           % Change in
         HMO                   Contract                  Rate                    Rate               Duenrollment
       Ownership**               Began                 (Percent)              (Percent)                 Rate

     #31                           4/85                  18.4                    20.2                  +     9.8

     # 32                          11/91                 34.3*                   26.5                      22.7*

     # 33                          8/9 1                    6.2*                  5.3                      14.5*

     # 34                          7/85                     5.6                   6.6                  +     17.9

     # 35                          6/86                     5.5                   3.5                      36.4

     # 36                          1/87                  41.8                     15.7                     62.4

     # 37                          3/90                  16.1                     15.9                        1.2

     # 38                          7185                   10.6                    18.4                        6.:

     # 39                          818-?                    9.9                   10.5                 +     6.1

     #40                           4[92                  17.3*                   11 .9*                    31 .2*

     # 41                          3188                     3.5                   NA                       NA

     # 42                          11/85                    7.1                   9.4                  +    32.4

     # 43                          4191                     6.4*                  9.9                  +   54.7*

     # 44                          11/87                    4.9                   6.6                  +    34.7

     #45                           1/89                     5.0                   5.1                        2.0

     Average % Change                                                                                      6.0%

     Absolute % Change                                                                                     26.0%

*
            Annualized disenrolhnent rate based on the number of disenrollees for the period of time the HMO risk
            contract existed. This technique allows for comparison among newer and more established HMOS.

**
            HMOS are grouped together if they are owned by the same parent company.

NA          Not Applicable - Three HMOS were not included in this analysis, H0616 and H0617 discontinued their risk
            contract in 1993 and H9049 split into two risk HMOS, transferring many beneficiaries into H3856.




                                                            D-2

                  Table 2: Top 5 HMOS with the Largest Percent DECREASE in the
                       Unadjusted Disenrollment Rate From CY91-92 to CY92-93

                            Month/Year           CY91-92             CY92-93
                            Risk HMO          DisenroUment       DisenroUmentRa       % Change in
                             Contract              Rate                  te           DisenroUment
    HMO Ownership              Began             (Percent)           (Percent)             Rate

    # 36                        1/87               41.8                 15.7               - 62.4

    # 20                       10/85               22.9                  9.7               - 57.6

    #4                         i2187               47.5                 30.0               - 36.8

    # 35                       6/86                 5.5                  3.5               - 36.4

    # 40                       4/92               17.3*                11 .9*              - 31.2*




                 Table 3: Top 5 HMOS with the Largest Percent lNCREASE in the
                     Unadjusted DisenroUment Rate From CY91-92 to CY92-93

                            MonthNear           CY91-92             CY92-93
                            Risk HMO         DisenroUment        DisenroUment       % Change in
                             Contract             Rate                Rate          DMenroUment
    HMO Ownership             Began            (Percent)           (Percent)           Rate

    # 14                I       9192               4.8*               12.0*            + 150.0*

    # 27                       10/92               4.0*               7.8*             +   95.0*

    #5                          1/90               10.6               17.6             +   66.0

    # 43                        4/9 1              6.4*               9.9*             4- 54.7*

    #3                          7185               21.0               29.6             +   41.0

*
           Annualized disenroilment rate based on the number of disenroUees for the period of time the HMO risk
           contract existed. This technique allows for comparison among newer and more established HMOS.




                                                          D-3

                                  APPENDIX                         E

               ANALYSIS      OF BENEFICIARY            DISENROLLMENT              STATUS

Introduction

This logistic regression model measures the eff~l of beneficiaries’ negative HMO
experiences on the likelihood of disenrollment, even after controlling for a number of
demographic characteristics, such as age, sex, and health status.

Model Construction

Methods

The variables created for this anlaysis are binary (except age), characterizing beneficiaries
with either a one (1) if the characteristic existed or a zero (0) if otherwise (see Table 1).
For this regression model, beneficiaries or events coded as zero represent the referent
category. The dependent variable estimated in this model, disenrollment status, measured
the change from the referent category produced by each independent variable.

This linear logistic model was created using SUDAAN to compute the correct standard
errors, based on weighted datab. This model allows us to estimate the probability of a
beneficiary disenrolling ~rom their HMO or remaining enrollefl, (p) depending on the
model, based on the linear combination of independent variables. That is,



where pi is the coefficient estimated by the equation, Xi is the value of the independent
variable, and k is the number of independent variables in the equation.

Using the logistic regression model, the interpretation of the coefficients, pi can be
translated easier using the exponential of the coefficient, known as the odds ratio. The
estimated odds ratio reflects the extent to which the refenmt category increases or
decreases the odds that a beneficiary disenrolled from their HMO or not. An odds ratio
of 5.0 for a particular independent variable, such as HEALTH’, is translated as: the
beneficiary is 5.0 times more likely to have disenrolled if their health got worse as a
result of the care they received by their HMO.




    b	   SUDAAN - Release 6.34, Research   Triangle park, North Carolinu:    Research Triangle Institute,
         1993.

    c	   HEALTH measures Lythe beneficiaries’   health got worse as a result of the care received by their
         HMO.


                                                   E-1

Results of the Regression Model

Tables 1 and 2 provide the logistic results for the regression model. Beneficiaries with
missing data for any of the variables were excluded from the analysis. Each table provides
the estimated odds ratios and the estimated lower and upper limits of the 95 percent
confidence intervals. Odd ratios with values greater than one (1) indicate that
beneficiaries with the characteristic have a greater likelihood of being disenrolled than
beneficiaries in the referent group. Confidence intervals including the value one (1)
indicate the characteristic does not have a significant effect at the 95 percent confidence
interval on whether a beneficiary has disenrolled or not.

Table 2 includes the full model measuring the probability of a beneficiary being
disenrolled or not. Highlighted variables are statistically sigtilcant at the 95 percent
confidence interval or better.

Discussion   of the Results

Variables influencing beneficiaries to disenroll, after adjusting for everything else include:
1) beneficiaries’ health getting worse as a result of the care received by their HMO, 2)
beneficiaries having prior HMO experience, 3) beneficiaries’ HMO prioritizing holding
down the cost of medical care, and 4) beneficiaries usually waiting an hour or more
before seeing primary HMO doctor.




                                             E-2

                     Table 1: VARIABLE DESCRIPTIONS
                   DEPENDENT VARIABLE:    DISENROLLEE

Variable Name      I Description

SEX                [ 1 = Beneficiary was male, O = female

DISABLED           ~ 1 = Disabled, O = aged beneficiary
AGE                  Beneficiaries’ age
                   I
COMPET_AREA        ] 1 = Beneficiary lived in a non-competitive area,
                   I O = beneficiary lived in competitive area

PROPENSITY_USE       1 = Low/Medium use of medical services by beneficiary,
                   I O = high use of medical services

SICK                   1 = Beneficiary was rated as very sick, O = beneficiary was not rated as
                       moderately sick or not sick
                                                                                      -.
PRIOR —HMO	        ] 1 = Beneficiary came previously from a HMO, O = beneficiary came
                   I previously from fee-for-service

COMPLAINTS	        I 1 = Beneficiaries’ complaints were@       take. seriously, O = beneficiaries’
                   I complaints were taken seriously

HMO_PRIORITY         1 = Beneficiary reported their HMO most concerned with holding down the
                   I cost of their medical care, O = Beneficiary reported their HMO most concerned
                   I with providing the best care possible

HEALTH_WORSENED	   ] 1 = Beneficiaries’ health got worse as a result of care received by HMO, O =
                   I beneficiaries’ health staYed the same or got better

                   I
POOR_SERVICE           1 = Beneficiaries’ HMO doctor not providing Medicare services, hospital care,
                       or referral to specialist care, O = otherwise

HOUR_WAIT
                   I 1=   Beneficiaries usually waited an hour or more before seeing their primary
                       HMO doctors, O = beneficiaries did not wait an hour

OWN_SERVICES
                   I   1 = Beneficiaries got services on their own, O = beneficiaries did not get
                       services on their own.




                                           E-3

                   Table 2: All beneficiaries who are enrolkd or had a
                       non-administrative    disenrollment (N = 674)
                                          Full Model
                      Dependent Variable = Disenrolled Beneficiary

        Variable            Odds                                   95% C.1.
                            Ratio
                                                       Lower                  Upper

SEX                         1.07                         .62                   1.86

DISABLED                    3.53                        1.04                  11.94
AGE
                        1.02                         .98                   1.06

COMPET_AREA
                 .90                         .52                   1.55

PROPENSITY_ USE
             .92                         .53                   1.60

SICK
                        .55                         .18                   1.70

PRIOR_HMO
                   1.92                        .81                   4.54

COMPLAINTS
                 1.35                         .61                   3.00

HMO_PRIORITY                3.39                        1.55                  7.42

HEALTH_WORSENED             5.00                        1.48                  16.95

POOR_SERVICE                1.63                         .72                  3.72

HOUR_WAIT                   2.75                        1.12                  6.75

OWN SERVICES                1.55                         .73             I    3.32




                                         E-4
                              APPENDIX                            F

                      KEY LINEAR REGRESSION                     VARIABLES

All regression models in this report were created using the SPSS for Windows 6.1
software package. Each analysis includes the following information about beneficiaries
from those FINIOs with complete information for each variable.


                             Table 1: VARIABLEDESCRIPTIONS

 Variable   Name           Description

 STAFF      HMO            1 =   Staff HMO, O = IPA HMO
 GROUP HMO                 1 = Group HMO, O = IPA HMO
 HMO_SIZE                  # of Me&care Risk Beneficiariesenrokd in HMO
 SOUTH                     1 =   HMO located in South, O = HMO located in West
 NEAST                     1 = HMO located h Northeast, O = Hmo located in West
 MIDWEST                   1 = HMO located in Midwest,         O = HMO located in West

 FEE-FOR-SERVICE           Percent of beneficiaries   receiving prior care through fee-for-service

 PROFIT                    1 = HMO is for profit, O = non-profit. HMO

 COMPETITIVE               1 = HMO is in competitive       area, O = HMO is in non-competitive       area

 POOR_SERVICE	            Percent of beneficiaries with HMO doctor not providing         Medicare
                          services, hospital care, or referral to specialist care

 SICK                     Percent of beneficia~-reported      serious health problems

 Q_HEALTH	                Percent of beneficiaries asked questions about health problems,       when they
                          applied for HMO membership

 HOUR_WAIT	               Percent of beneficiaries usually waiting an hour or more before seeing
                          their primary HMO doctors

 COMPLAINTS	              Percent of beneficiaries reporting    their primary HMO doctor did not take
                          their complaints seriously

 OWN_SERVICES	            Percent of beneficiaries in last year, getting Medicare covered services on
                          their own without primary HMO doctor or HMO first approving

 HMO_PRIORITY	            Percent of beneficiaries reporting    their HMO most concerned      with holding
                          down the cost of medical care


 DAYS_OPEN	                Days HMO has operated current risk HMO contract (used only in
                           regression model #1)

 WANT_LEAVE	               Percent of beneficiaries   wanting to leave but feel they can’t (used only in
                           regression model #4)



                                                F-1
                                      LINEAR REGRESSION                   RESULTS



The following tables show the overall regression results of all our reduced models used in
this report. It includes the estimate, standard error, t-value for all variables and the
significance level (probability > ~t [). The t-value for each variable tests for the effect of
each independent variable on the dependent variable. The last column gives the
probability of the t-value. The t-values and the associated probabilities (probability >
 ~t ~) test the hypothesis that the parameter is actually zero and answers the question: If
the true slope and intercept were zero, what would the probability be of obtaining, by
chance alone, a value as large or larger than the one actually obtained?

Reduced Models:

                      Table 2	   Dependent Variable = Percent change in disenrollment rate from
                                 time period 1 (’91 & ’92) to time period 2 (’92 & ‘93)”
                                      N = 39 HMOS, all enrollees & disenrollees”
                                             R2 = .29 & Adjusttxl R* = .27

          Variable               Parameter                 Standard               t-Value             Probability
                                  Estimate                   Error                                       > /tj
                           I                         I                     I                     I
    Intercept              ~        227.96           !       62.56         [        4.44                    .Ooo1
                                                                                                 1
    Days Open              I         -0.12           I        0.03         I        -3.91        I          ,0004

*
            Excludes 6 HMOS; H0616 & H(M 17 dropped their risk HMO contract, H3249, H45 10, H 1406 had
            a low number of disenroiled respondents, & H9049 split into two risk I-IMOS, transferring many
            beneficiaries into H3856.




                    Table 3:   Dependent     Variable = Percent beneficiaries wanting to leave but can’t

                                                 N = 45 HMOS, enrollees only

                                                R2 = .39& Adjusted R2 = .34


         Variable                Parameter                 Standard               t-Value             Probability
                                  Estimate                   Error                                       > ~t~

    Intercept                        3.84                     1.61                  2.38                    .0218

    Hour Wait or
    more for Primary
    HMO Doctor                       0.43                     0.13                  3.16                    .0030
    Poor Service                     0.35                     0.16                  2.13                    .0391

    Southern HMO                     0.04                     0.18                  2.36                    .0230




                                                             F-2

                         Table 4:   Dependent	 Variable = Annualized adjusted disenrollment               rates for ’92 & ’93”
                                               N = 39 HMOS, all enrollees & disenrollees­
                                                       R’ = .23& Adjusted R2= .21

                 Variable                    Parameter                 Standard                  t-Value                Probability
                                              Estimate                   Error                                             > ~t~
                                    I                           I                        I                        I
        Intercept                                0.79                     2.88                    0.28                     ,7842
                                    I                           {                        1                         1

        Complaints                               0.55                    0.17                     3.37                     .0018
                                    I
.
                   The adjusted disenrollment rate excludes the administrative dise~ollees                 (based on a formula created
                   by our survey data, see Methodology seetion for further explanation)
                   -..          . . .. . .    . . . ..   -—.

                   bxcludes     6 HMOS;       H(I616 & H0617       dropped their risk HMO contract, H3249, H45 10, H 1406 had

                  a low number of disenrolled             respondents, & H9049 split into two risk HMOS, transferring many
                  beneficiaries into H3856.


                         Table 5: Dependent        Variable = Annualized adjusted disenrollment           rates for ’92 & ’93-

                                                          N = 39 HMCS, enrollees only-

                                                           R2 = .43 & Adjusted Rz = .38


                 Variable                    Parameter                 Standard                  t-Value                Probability
                                              Estimate                   Error                                             > jt~

        Intercept                               -5.17                    3.36                     -1.54                    .1331

        Poor Service                             0.68                    0.24                      2.89                    .0066
                                                                                                                             —
        Complaints                               0.51                    0.21                      2.46                    .0189

        Profit                                   0.05                    0.02                      2.10                    .0429
*
                  The adjusted disenrollment rate excludes the administrativedisenrollees (based on a formula created
                  by our survey data, see Methodology section for further explanation)
                  Excludes 6 HMOS; H0616 &H0617 dropped their risk HMO contract, H3249, H45 10, H 1406 had
                  a low number of disenrolled respondents, & H9049 split into two risk HMOS, transferring many
                  beneficiaries into H3856.


                             Table 6: Dependent          Variable   = Percent Leaving HMO one year after survey
                                                           N = 42 HMOS,      enrollees   only*
                                                           R2 = .37 & Adjusted     R2 = .33

             Variable                        Parameter                 Standard                  t-Value               Probability
                                              Estimate                   Error                                            > ~t~

        Intercept                               -2.05                    2.48                     -0.83                    .4139

        complaints                               0.58                    0.15                      3.79                    .0005

        HMO_Priority                              0.24                   0.10                      2.44                    .0191

    *
                  Excludes 3 HMOS; H0616 & H0617 dropped their risk HMO contract,                          & H9049 split into two risk
                  HMOS, transferring many beneficiaries into H3856.



                                                                         F-3—
                    Table 4: Dependent       Variable = Annualized adjusted disenrollment     rates for ’92 & ’93”
                                             N = 39 HMOS, all enrollees & disenrolleess
                                                     Rz = .23& Adiusted Rz = .21

               Variable               Parameter                Standard               t-Value                  Probability
                                       Estimate                  Error                                            > ~t~

        Intercept                            0.79                 2.88                 0.28                       .7842
        Complaints                           0.55                 0.17                  3.37                       .0018
.
                  The adjusted disenrollment rate excludes the administrative disenrollees          (based on a formula created
                  by our survey data, see Methodology section for further explanation)

                  Excludes 6 HMOS; H0616 & H0617 dropped their risk HMO contract,                   H3249, H45 10, H 1406 had
                  a low number of disenrolled respondents, & H9049 split into two risk             HMOS, trmsfeming m~Y
                  beneficiariesinto H3856.


                        Table 5: Dependent    Variable = Annualized adjusted disenrollment      rates for ’92 & ’93-
                                                     N = 39 HM@s, enrollees only-
                                                      R2 = .43 & Adiusted R’ = .3S                                                II

                Variable               Parameter                Standard              t-Value                   Probability
                                        Estimate                  Error                                            > ~t~

        Intercept                            -5.17                3.36                  -1.54                      .1331

        Poor Service                         0.68                 0.24                   2.89                      .0066
                                                                                                                     _—
         Complaints                           0.51                0.21                   2.46                      .0189

         Profit                               0.05                0.02                      2.10                   .0429

    *
                   The adjusted disenrollment rate excludes the adminktrative disenrollees(based on a formula created
                   by our survey data, see Methodology section for further explanation)

                    Excludes6 HMOS;H0616 &H0617 dropped their risk HMO contract, H3249, H4510, H1406 had
                    a low number of disenrolled respondents, & H9049 split into hvo risk HMOS, transferring manY
                    beneficiariesinto H3856.


                             Table 6: DependentVariable = Percent Leaving HMO one year after survey

                                                N = 42 HMOS, enrollees only*

                                                R’ = .37 & Ad@sted R2 = .33


                  Variable              Parameter               Standard               t-Value                   Probability
                                         Estimate                 Error                                             > ~t~

            Intercept                         -2.05                2.48                     -0.83                   .4139

            complaints                         0.58                0.15                      3.79                    .0005

            HMO_Priority                       0.24                 0.10                     2.44                    .0191

        .
                    Excludes 3 HMOS; H0616 & H0617 dropped their risk HMO contract, & H9049 split into two risk
                    HMOS, transferring many beneficiariesinto H3856.


                                                                   F-3
 APPENDIX         G



TEXT OF AGENCY COMMENTS




          G-1
        W8-2S

#            ~

                   DEPARTMENT OF HEALTH& HUMAN                                 SERVICES                                         Health Care Fin~n~ing Administration

        -@

‘%. \
                                                                                                                               The Administrator
                                                                                                                               Washington, D.C.        20201




              DATE          SET              I 1995

              FROM         Bruce C. Vladec                 I               LP@
                           Administrator                 %-        “
                       ;
              SUB~CT       Office      of    Inspector         General     (OIG)    Draft    Report:     “Medicare          Risk   Health
                           Maintenance            Organization             (HMO)    Performance          Indicators,”        (OEI-06-9      1-00734)


              TO           June      Gibbs     Brown
                           Inspector         General




                           We     reviewed        the above-referenced              report    which      analyzes        the relationship       between
                           OIG      beneficiary          su~ey      data    and fiture      HMO    disenrollment           and, specifically,       how
                           service     access      relates       to disenrollment        status.       Our   comments        on the report
                           recommendations                are attached.


                           Thank       you     for the opportunity            to review      and comment            .n   this report.


                           Attachment




                                                                                     G-2
                             Comments of the Health Care Financing Administration (HCFA)

                                 on Office of Insuector General (OIG) Draft Reoort:

                     “Medicare Risk Health Maintenance Organization (HMO) Performance.”

                                             (OEI-06-9 1-00734)



OIG Recommendation

Track disenrollment rates over time to detect potential                                         problems         among     HMOS.            I-lMOs

experiencing          larger     than     average          increases      in ciisenrollment            rates     Should    be monitored                more

closely.



HCFA Re.monse

We concur. HCFA has been tracking disenrollment rates over time to detect potential problems

among HMOS. Our Office of Managed Care (OMC) developed a plan profile report in 1991

which incorporates               various        key indicators            of a Medicare          contractor’s         HMO       performance                and

includes        a number       of significant            data    elements        on disenrollment.               OMC’s       Operations            and

oversight         Team      reviews        these     data       on an ongoing             basis as well        as before     conducting            a monitoring

site visit      of a Medicare           contractor.             OMc      also tracks         disenrollment          via other       data;      e.g.,    HCFA

Medicare         Hotline       data,     reconsiderations.



OIG      Recommendation

Use    adjusted       disenrollment             rates,     along       with    other      availab]e     HM()      information         (e.g.,      beneficiary

complaints         and appeals           lodged      against       HMOS)          to target      review-s        of HMOS,



HCFA        Response

We     concur.       The     C)Mc        puts disenrollment rates in context with other ~f10                                    information               as part of

targeting        reviews     of contractors.               We believe,           however,       that the OIG          may &         underestimating                 the

degree      to which        disenrollment           occurs         due to      shopping for           benefits     on the part of beneficiaries.



OIG      Recommendation

Conduct         disenrollment           surveys       that folly        capture         all the beneficiary’s        reasons        for leaving           the

Medicare         risk HMO.             This    information            should     be included          in the Group         Health     Plan       data     files.



HCFA        ResDonse

We     concur      and are implementing                    a new       disenro]lment          form that has been             designed          to captu[e

significant       data     regarding          motivation         for disenrollment.



OIG      Recommendation

Survey        enrollees     systematically               and routinely         on key questions             and on their desire             to leave/remain

with     an HMO,          to complement             disenrollment              data.





                                                                                         G-3

Page 2

HCFA ResDonse

We concur. A work group is currently developing a strategy on the conduct of beneficiary

satisfaction surveys. Items being considered are a national survey versus individual HMO

surveys, subject areas to cover, types of questions to ask, approaches for evaluation of surveys,

existing surveys, as well as other relevant areas.

                                     (.
OIG Recommendation

Monitor Medicare risk HMOS with high disenrollment rates and reported service access problems

and work with HMOS to respond to the needs of beneficiaries at risk of disenrolling.


HCFA ResDonse

We concur. DisenroIlment rates are monitored on an ongoing basis with special sensiti v;.Y and

follow up with HMOS which show high disenrollment rates and reported access problems.


Comments on Kev O uestions
The   key questions    offered     by the OIG    as predictive   of beneficiaries’   future   disenrollment   will be
shared   with   the work   group    referenced    above.




                                                                 G-4

